HHS/OIG-Audit--"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1990, (A-04-91-04026)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1990," (A-04-91-04026)
July 1, 1992
Complete
Text of Report is available in PDF format (341 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audit of the National Institutes of Environmental Health Sciences (NIEHS)
Superfund financial activities for Fiscal Year (FY) 1990. Our audit disclosed that, with the exception of minor irregularities
due to clerical errors, NIEHS generally administered the fund in accordance with Superfund legislation. However, we noted
internal control weaknesses involving the: (1) timeliness and accuracy of the IAG between NIEHS and EPA; (2) adequacy of
documentation maintained for billings; and (3) compliance with time and attendance procedures.